NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JUN 10 2020
MOLLY C. DWYER. CLERK

FOR THE NINTH CIRCUIT
LYLE MARK COULTAS,

U.S. COURT OF APPEALS

No. 19-35421

Plaintiff-Appellant.

D.C. No. 3:19-CV-00021 -HZ

v.

MEMORANDUM*
CARROLL TICHENOR, Individually and
in his Official Capacity as a Yamhill County
Prosecutor; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for die District of Oregon
Marco A. Hernandez, Chief Judge, Presiding
Submitted June 2, 2020**
Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

Lyle Mark Coultas appeals pro se from the district court's judgment
dismissing his 42 U.S.C. § 1983 action alleging fraud on the court. We have
jurisdiction under 28 U.S.C. § 1291. We review de novo the district court’s

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

f\

dismissal on the basis of res judicata. Stewart v. U.S. Bancorp., 297 F.3d 953, 956
(9th Cir. 2002). We may affirm on any basis supported by the record, Thompson v.
Paul, 547 F.3d 1055, 1058-59 (9th Cir. 2008), and we affirm.
Dismissal of Coultas’s action to set aside a prior judgment for fraud on the
court was proper because Coultas failed to allege facts sufficient to state a claim.
SeeHebbe v. Pliler, 627 F.3d 338, 341-42 (9th Cir. 2010) (although pro se
pleadings are to be liberally construed, a plaintiff must still present factual
allegations sufficient to state a plausible claim for relief); see also Appling v. State
Farm Mut. Auto. Ins. Co., 340 F.3d 769, 780 (9th Cir. 2003) (“Fraud on the court
requires a grave miscarriage of justice.” (citation and internal quotation marks
omitted)).
We reject as unsupported by the record Coultas’s contentions regarding
judicial misconduct.
All pending motions are denied.
AFFIRMED.

2

19-35421

App A

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

SEP 18 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

LYLE MARK COULTAS,
Plaintiff-Appellant,
v.
CARROLL TICHENOR, Individually and
in his Official Capacity as a Yamhill County
Prosecutor; et ah,

No. 19-35421
D.C. No. 3:19-cv-00021 -HZ
District of Oregon,
Portland
ORDER

Defendants-Appellees.
Before:

LEAVY, PAEZ, and BENNETT, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Coultas’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 26) are denied.
No further filings will be entertained in this closed case.

/? pp< A

Ap
UMTED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ft

FILED
SEP 29 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

LYLE MARK COULTAS,
Plaintiff - Appellant,
v.
CARROLL TICHENOR, Individually
and in his Official Capacity as a Yamhill
County Prosecutor; et ah,

No. 19-35421
D.C. No. 3:19-cv-00021-HZ
U.S. District Court for Oregon,
Portland
MANDATE

Defendants - Appellees.

The judgment of this Court, entered June 10, 2020, takes effect this date.
V,-

This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURTMOLLY C. DWYER
CLERK OF COURT
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

X

A

Case 3:19-cv-00021-HZ Document 9 Filed 04/23/19 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION

LYLE MARK COULTAS,

No. 3:19-cv-00021 -HZ

Plaintiff,
v.
CARROLL J. TICHENOR, Individually and
in his Official Capacity as a Yamhill County
Prosecutor; YAMHILL COUNTY DISTRICT
ATTORNEY'S OFFICE; STEVEN PAYNE,
Individually and in his Official Capacity as an
Oregon State Police Crime Laboratory Detective;
OREGON STATE POLICE,
_Defendants.

OPINION & ORDER

-

Lyle Mark Coultas
PO Box 434
Gaston, OR 97119
Pro Se Plaintiff
Andrew Hallman
Assistant Attorney General
Department of Justice
1162 Court Street NE

1-OPINION & ORDER

ml€.^ B>

Case 3:19-cv-00021-HZ

Document 9 Filed 04/23/19

Page 2 of 5

Salem, OR 97301
Attorney for Defendants
HERNANDEZ, District Judge:
Plaintiff brings this civil rights action pursuant to 42 U.S.C. § 1983. For the reasons set
forth below, the Court dismisses Plaintiffs Complaint for failing to state a claim upon which
relief may be granted.

BACKGROUND
Plaintiff alleges he was falsely accused of child molestation in 2001. During trial on those
charges, the police and prosecutor committed fraud upon the trial court and violated his right to
■i

due process. He asks this Court to vacate his criminal convictions and award him various fees,
expenses, compensatory damages, and punitive damages totaling $100,000,000.
STANDARDS
Dismissal is appropriate if a plaintiff fails to state a claim upon which relief can be
granted. See Fed. R. Civ. P. 12(b)(6). Plaintiff's complaint should not be dismissed for failure to

&

state a claim, however, unless it appears beyond doubt that Plaintiff can prove no set of facts in
support of his claim which would entitle him to relief. Terracom v. Valley Nat'l Bank, 49 F.3d
555,558 (9th Cir. 1995).
Dismissal for failure to state a claim is a ruling on a question of law. Parks School of
Business, Inc. v. Symington, 51 FJd 1480,1484 (9th Cir. 1995). Review is limited to the
contents of the complaint and its exhibits, id., as well asmatters properly subject to
judicial notice. Swartz v. KPMG LLP, 476 F.3d 756, 763 (9th Cir. 2007). Allegations of fact in
the complaint must be taken as true and construed in the light most favorable to plaintiff. Parks
School ofBusiness, Inc., 51 F.3d at 1484.

2 - OPINION & ORDER
&

Case 3:19-cv-00021-HZ Document 9 Filed 04/23/19 Page 3 of 5

From the facts alleged, the court also must draw all reasonable inferences in plaintiff's favor.
Usher v. City ofLos Angeles, 828 F.2d 556, 561 (9th Cir. 1987).
DISCUSSION
L

Res Judicata

On May 8,2018, Judge Mosman issued an order dismissing Plaintiff s complaint in the
case of Coultas v. Tichenor et al., 3:18-cv-596-MO. Coultas v. Tichenor,2018 WL 2287023 (D.
Or. May 8,2018). Judge Mosman concluded that Plaintiff’s complaint was barred by the
doctrine of res judicata. Specifically, he found that Plaintiff had litigated the same claims, against
the same defendants, twice before: in Coultas v. Payne, et al, Case Islo. 3:1 l-cv-00045-AC and
Coultas v. Payne, et al., Case No. 3:12-cv-01132-AC. In the-first case, Judge Acosta ultimately
dismissed the claims against the same defendants based on Eleventh Amendment immunity,

s

failure to state a claim, and the statute of limitations. Coultas v. Payne et al., No. 3:1 l-cv-00045AC, ECF Nos. 44,100, 137. The Ninth Circuit Court of Appeals affirmed that decision on April
9, 2018. Coultas v. Payne, 699 F. App’x 749 (9th Cir. 2017) (Mem). In the second case, Judge
Acosta determined, in part, that claim preclusion barred the relitigation of these issues and
dismissed the case with prejudice. Findings and Recommendation, Coultas v. Payne, et al., Case
No. 3:12-cv-01132-AC, ECF 55.
Plaintiff has now filed a new complaint before this Court. The complaint names the same
defendants and recites the same facts and allegations as the case previously before Judge
Mosman. Indeed, the complaint reads almost verbatim. Thus, Defendants moved to dismiss to
die complaint based on Judge Mosman’s order and the doctrine of res judicata. In response,
Plaintiff argues—as he did before Judge Mosman—that the case has never been heard and
decided on the merits. He also argues that the new complaint identifies new harms that could not

3 - OPINION & ORDER

,r

Case 3:19-cv-00021-HZ Document 9 Filed 04/23/19 Page 4 of 5

have been raised in prior litigation. Specifically, he notes that (1) ORS § 166.255 went into effect
on January 1,2019 and prohibits him from owning a firearm, and (2) in January he was ordered
to pay to remain on the sex offender registry.
Plaintiff’s arguments are without merit. First, in an order denying Plaintiffs motion for
re-consideration, Judge Mosman explained that although Judge Acosta did not reach the
underlying facts of Plaintiffs claim, there was still a final judgment on the merits. See Stewart v.
U.S. Bancorp, 297 F.3d 953,957 (9th Cir. 2002) (dismissalfor failure to state a claim under Rule
12(b)(6) is a final judgment on the merits). Judge Mosman explained that “[i]t is a misconception
of res judicata to assume that the doctrine does not come into operation if a court has not passed
on the ‘merits’ in the sense of the ultimate substantive issues of a litigation.” Angel v. Bullington,

k

330 U.S. 183,190 (1947). .
Second, Plaintiff has not identified new claims that could not have been raised in the

C*'i

prior litigation. A plaintiff may avoid res judicata by alleging “a new set of facts giving rise to a

------ --------------

new claim.” Tahoe-Sierra Preservation Council, Inc. v. Tahoe Regional Planning Agency, 322

x.

F.3d 1064,1079 (9th Cir. 2003). Plaintiff cannot simply allege a new or more severe injury
stemming from the same underlying conduct. Id. at 1079 n.12. Here, while Plaintiff may have
identified new injuries—the inability to own a gun and the cost of sex offender registration—
these injuries arise from the exact same conduct already litigated in the first case before Judge
Acosta. Plaintiff has not identified any new acts that occurred after the last date alleged in the_
prior litigation.
The Court therefore follows the order issued by Judge Mosman on May 8, 2018 in the
case Coultas v. Tichenor et al., 3:18-cv-00586-MO and dismisses the complaint with prejudice.

4-OPINION & ORDER

3

d

Case 3.19-CV-00021-HZ Document 9 Filed 04/23/19 Page 5 of 5

n.

Attorney Fees

Based on the record, the Court declines to award attorney fees. However, the Court notes
that this is Plaintiff’s fourth case raising the same claims, and the third case in which these
claims were dismissed because of claim preclusion. Plaintiff is advised that a new suit, based on
the same claims, may result in an order imposing the pre-filing review of any future cases filed in
this district. See Harry and David v. Pathak, 2012 WL 1309181, *2 (D. Or. Feb. 9, 2012) (citing
Molshv. Evergreen I^astytorp. JOOJMJO^^^

(“A distiict court may

enjoin a vexatious litigant under the All Writs Act, 28 U.S.C. § 1651 (a), by issuing aQ pre-filing
order requiring the litigant to seek permission from the court prior to filing any future suits.”)).
CONCLUSION
The Court GRANTS Defendants’ motion to dismiss with prejudice. The Court DENIES
Defendants’ request for attorney fees.
Dated this

ll

,2019.

/ 1

Alwfvn i/wK

MARCO A. HfcRNANDEZ
United States District Judge

5- OPINION & ORDER

C
LYLE MARK COULTAS
P.0. BOX 434 GASTON, OREGON 97119
503-431-1839

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION
LYLE MARK COULTAS,
Plaintiff,
vs.

CIVIL CASE NO:
No. 3:19-cv-00021-HZ
PLAINTIFF’S MOTION
FOR RECONSIDERATION

CARROL TICHENOR, Individually and
in his Official Capacity as a Yamhill County
prosecutor; YAMHILL COUNTY DISTRICT
ATTORNEY'S OFFICE; STEVEN PAYNE,
Individually and in his Official Capacity as an
Oregon State Police Crime Laboratory Detective;
OREGON STATE POLICE;
Defendants.
Plaintiff asks the District Court to reconsider its Opinion and Order Dated April 23,2019 as the?:
District Court misrepresented the facts of Plaintiffs case as well as the law as Ordered by the United
States Supreme Court.
District Court Judge Marco A. Hernandez stated on page 4 of his Opinion and Order “Plaintiff
has not identified new claims that could not have been raised in the prior litigation”. As clearly pointed
out in Plaintiffs “NEW” Complaint, HB4145 took effect January 1,2019 and did not exist when
Plaintiff previously filed a complaint. In the past several years Plaintiff has purchased several rifles,
shotguns and handguns and went through State and Federal background checks. HB4145 now makes it
a crime for Plaintiff to posess the firearms he legally purchased.

PAGE 1 of 5 Motion for Reconsideration

The UNITED STATES SUPREME COURT clearly stated in Lawlor v. National Screen
Service Corp., 349 U.S. 322 (1955), res judicata does not bar a suit, even if it involves the same
course of wrongful conduct as alleged earlier, so long as the suit alleges new facts or a worsening of
the earlier conditions.
The District Court completely ignors the UNITED STATES SUPREME COURT’S ORDER
stating “even if it involves the same course of wrongful conduct” as alleged earlier. It simply does not
matter how many times a case is litigated as long as there are new facts or a worseing of the earlier
conditions that could not have been addressed previously, as Plaintiff has presented in his complaint.
District Court Judge Marco A. Hernandez has misrepresented the law as determined by the
UNITED STATES SUPREME COURT in Lawlor v. National Screen Service Corp., 349 U.S. 322
(1955).
District Court Judge Marco A. Hernandez has misrepresented Facts in this case on page 3 of his
Order and Opinion where he stated “In the first case, Judge Acosta ultimately dismissed the claims
against the same defendants based on Eleventh Amendment immunity, failure to state a claim and the
statute of limitations. # # # The Ninth Circuit Court of Appeals affirmed the decision on April 9, V

x\

2018.”
Judge Acosta Dismissed Plaintiffs case based on his clear misrepresentation of Heck V.
Humphrey. The Ninth Circuit Court vacated Judge Acosta's Dismissal of Plaintiffs case and then
Ordered Judge Acosta to examine Plaintiffs claims against the defendants for any inconsistencies.
Judge Acosta simply Dismissed Plaintiffs case a second time but added several more
misrepresentations. The second time Plaintiff went to the Ninth Circuit Court is when the Ninth Circuit
Court upheld Judge Acosta's dismissal of Plaintiffs Case.

PAGE 2 of 5 Motion for Reconsideration

C

District Court Judge Marco A. Hernandez has misrepresented Facts in this case on page 2, “He
asks this Court to vacate his criminal convictions and award him various fees, expenses, compensatory
damages, and punitive damages totaling $100,000,000”. In Plaintiffs Complaint Plaintiff clearly
stated,“The criminal charges against Plaintiff should be vacated for Fraud on the Court, as well as
everything associated with, and attributed to those charges for Fraud on the Court” Plaintiff never
mentioned “award him various fees, expenses, compensatory damages, and punitive damages totaling
$ 100,000,000”. The only time Plaintiff mentioned any fees was in Plaintiffs reply where Plaintiff
stated “Lastly, Any request by Defense for Attorney Fees should be Denied and Plaintiff should be
Awarded Attorney Fees because the Defendant's did, in fact, violate the law and Plaintiffs Rights.”
District Court Judge Marco A. Hemandez.has misrepresented Facts and the law in this case and
reconsideration should be granted. If reconsideration is denied Plaintiff will file an Appeal with the
Ninth Circuit Court based on misreresentations of law and facts by District Court Judge Marco A.
Hernandez.
The UNITED STATES SUPREME COURT clearly stated in Lawlor v. National Screen
Service Corp., 349 U.S. 322 (1955), res judicata does not bar a suit, even if it involves the same
course of wrongful conduct as alleged earlier, so long as the suit alleges new facts or a worsening of
the earlier conditions.
Because this case “IS” specifically about fraud on the court Plaintiff contends that “IF” this case
was ever-heard and decided on the merits then Plaintiffs convictions would have already been vacated
as stated and “ORDERED” by the United States Supreme Court; Hazel-Atlass Glass Co. v. Hartford
Empire Co., 322 U.S. 238 (1944). No court has the lawful authority to validate a void order.
(1968); 7 Moore's Federal Practice, 2d ed., p. 512, f 60.23. The 7th Circuit
further stated "a decision produced by fraud upon the court is not in essence
a decision at all, and never becomes final."

PAGE 3 of 5 Motion for Reconsideration

c

"Fraud upon the court" makes void the orders and judgments of that court.
It is also clear and well-settled Illinois law that any attempt to commit
"fraud upon the court" vitiates the entire proceeding. The People of the
State of Illinois v. Fred E. Sterling, 357 Ill. 354; 192 N.E. 229 (1934)
("The maxim that fraud vitiates every transaction into which it enters
applies to judgments as well as to contracts and other transactions.");
Allen F. Moore v. Stanley F. Sievers, 336 Ill. 316; 168 N.E. 259 (1929)
("The maxim that fraud vitiates every transaction into which it enters...");
In re Village of Willowbrook, 37 Ill.App.2d 393 (1962) ("It is axiomatic that
fraud vitiates everything."); Dunham v. Dunham, 57 Ill.App. 475 (1894),
affirmed 162 Ill. 589 (1896); Skelly Oil Co. v. Universal Oil Products Co.,
338 Ill.App. 79,86 N.E.2d 875, 883-4 (1949); Thomas Stasel v. The American
Home Security Corporation, 362 III. 350; 199 N.E. 798 (1935).
Under Illinois and Federal law, when any officer of the court has
committed "fraud upon the court", the orders and judgment of that court
are void, of no legal force or effect.
In U.S. law, a "false statement" generally refers to the United States federal
false statements statute, contained in 18 U.S.C. § 1001. Most commonly,
prosecutors use this statute to reach cover-up crimes such as perjury, false
declarations, and obstruction of justice and government fraud cases.
The statute criminalizes a government official who "knowingly and willfully”;
(1) falsifies, conceals, or covers up by any trick, scheme, or device a material
fact;
(2) makes any materially false, fictitious, or fraudulent statement or
i
representation; or,
(3) makes or uses any false writing or document knowing the same to contain
any materially false, fictitious, or fraudulent statement or entry.

3

I
i/

Neither the Defense Counsel or the Defendant's haVe ever made any attempt to deny Plaintiffs
claims raised in Plaintiffs complaint and Neither the Defense Counsel or the Defendants have ever

'}

even remotely sugested Plaintiffs claims were, in any way, untruthful.
No court has the lawful authority to validate a void order. U. S.v. Throckmorton, 98 U.S.
61,25 L.Ed 93 (1878); Hazel -Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238,64 S.Ct .997
(1943); Root refining Co. v. Universal Oil Products Co., 169 F.2d 514 (1948); In re Garcia, 109 B.R.
335 (N.D. Illinois, 1989); Schwarz v. Schwarz, 27 U1.2d 140,188 N.E.2d 673 (1963), Dunham v.
Dunham, 162 Ill. 614 (1896); Skelly Oil v. Universal Oil Products Co. 338 Ill.App. 79, 87 (1st Dist.

PAGE 4 of 5 Motion for Reconsideration

C

6

No court has the lawful authority to validate a void order.
When any officer of the court has committed "fraud upon the court", the orders and
judgment of that court are void, of no legal force or effect.
It is axiomatic that fraud vitiates eveiything
Fraud upon the court" vitiates the entire proceeding
A decision produced by fraud upon the court is not in essence decision at all, and never
becomes final
Fraud on the court is a crime deemed so severe that it has no statute of limitations
The UNITED STATES SUPREME COURT clearly stated in Lawlor v. National Screen
Service Corp., 349 U.S. 322 (1955), res judicata does not bar a suit, even if it involves the same
course of wrongful conduct as alleged earlier, so long as the suit alleges new facts or a worsening of
the earlier conditions.
District Court Judge Marco A. Hernandez has misrepresented material facts in this case as well
as the United States Supreme Court law. Any Order or Judgment produced by fraud is not a valid Order
or Judgment. No court has the lawful authority to validate a void order and that includes the District
Courts of Judge Hernandez, Judge Mosman and Judge Acosta.
No court has the lawful authority to validate a void order.
For the reasons stated herein the District Court should reconsider the Courts Opion and Order to
Dismiss Plaintiff case.

DATED this 30th Day of April, 2019.

Respectfully Submitted

Lyle M. Coultas Pro-§e

PAGE 5 of 5 Motion for Reconsideration

c

District of Oregon CM/ECF LIVE Release Version 6.1

https://ecf.ord.circ9.dcn/cgi-bin/Dispatch.pl?392003£3j199947

Scheduling Orders/Judgments/Other Orders
3:19-cv-00021-HZ Goultas v.
Tichenor et al CASE CLOSED
on 04/23/2019

m

o

cley b

APPEAL,
PROSEPTY, TERMINATED,

U.S. District Court
District of Oregon
Notice of Electronic Filing

The following transaction was entered on 5/22/2019at 5:29 PM PDT and filed on 5/22/2019
CaseName:
'Coultasv. Tichenbr et ail
3:19-CV-00021 -HZ
Case Number:
Filer:
WARNING: CASE CLOSED on 04/23/2019
Document Number: 16(No document attached)
ORDER: Plaintiffs Motion for Reconsideration [11] is denied. "Reconsideration is
appropriate if the district court (1) is presented with newly discovered evidence, (2)
committed clear error or the initial decision was manifestly unjust, or (3),f there is an
intervening change in controlling law. School Dist No. 1J v. AC™<*S,jnc.t 5 F.3d 1255,
1263 (9th Cir. 1993). The Court has reviewed Plaintiffs motion. Plaintiff correctly
argues that the Court mistakenly stated, in the background section of the opinion , that
Plaintiff requested 100 million dollars in damages in his complaint. However, this fact
does not alter the Court’s conclusion that the case was properly dismissed with
prejudice or result in a decision that was manifestly unjust. Reconsideration is not
warranted on any other ground raised by Plaintiff. Ordered by Judge Marco A.
Hernandez.(7Wa//ec/ to Pro Se psrty on 5/22/2019-)Jj p)-----

3:19-cv-00021-HZ Notice has been electronically mailed to:
Andrew D. Hallman andrew.hallman@doj .state.or.us, debbie.sword@doj .state.or.us,
lisaxschnelle@doj.state.or.us
3:19-cv-00021-HZ Notice will not be electronically mailed to:
Lyle Mark Coultas
PO Box 434
Gaston, OR 97119

O&iAA

fats

Ji 5/22/2019, 5:29 PM
1 of 2

\J 27,

State v. Lyle Mark Caultas, CR010164
1

psychologically traumatized, by what happened/ that she

2

was committed to the children's psychiatric ward in

1

3

Providence Hospital as a result of the sexual abuse,

\

4

the physical touching, and the pornography.

m

5.

This had an impact on her that was
.♦

.• ..

6

^evastating.

Ip:

7

counselor will come and offer the medical reports and

8

exhibits from the doctor from the psychiatric ward as

9

well as her own counseling that this child was so

f

i
ir

.

She is still in counseling,

Her

10

t;raumabized that she was thinking very seriously, had

i

ii

^ideations of suicide, and the pornography was the main

ti

12

factor that influenced her and kept her from reporting

13

a hopeless situation she didn't know what to do with.

14

^

-15

What we are intending to show is that the

defendant was showing the pornography as a. way of
jti-.igMHaCm.rfc a> r , y-reunsaM

gauging the results and the actions of the children to

17

see who he would next victimize.

18

was a plan, there was a motive, that there was an

V

It shows that there

jintent that none of these touchings that are alleged,
.

21

.ii

se

16

20

. Jti

es>
rWI JJ iff 0*

19

’•J i

■"iTrTiTT "hTYi" Tir—-

whether it's sex abuse in the first degree or third
ss>
egree are accidental. The one in the third degree is

22 | a rubbing on the buttocks while the child is sleeping.
23 | The same child was one that was shown pornography.
24 j The same child was one that was shown at a time when
25

she-was with the other girls at this birthday party a
Stephanie B. Lanier
Official Court Reporter

e

i;

1222

State v. Lyle Mark Coultas, CR010164
1

by the defense, some from tlie friends, people that

2

have known the defendant.

3

considered by the Court.

4

individuals were not present in the court.

5

not hear the evidence.

r-v.

6

this jury heard.

i.V-

7

unanimous findings.

L':~

R,

And, again, they should be
But each one of these
They did

r£

8
9

And they did not hear what

And the jury came back with

I have had a request by the husband of one
of the jurors that they were not going to be present.
The

10

They were not going to be able to be present.

ll

juror wanted to be present for this because she has

12

also gone through a psychological adjustment because

13

of what she * s heard and what5 s been presented and seen

■:/

4

4
<?

I
‘V

14

the reactions of the children, and she *s a nurse, and

15

she stated through her husband that she has on her:own
4

r

.**

•>
■

provided counseling to some of the other jurgj^

17

because of the impact that this case had on them.

18

They were so impressed with the type of

19

41

. testimony that in almost all of the counts they were

20

unanimous in their findings that the defendant

21

sexually abused and molested these children, either by

22

content or the' subject matter that was shown to them

23

or, in fact, physically touching them

h2£s

«a°w?g

24

The State feels, Your Honor, that this is a

25

particularly aggravated case because of the nature of
Stephanie B. Lanier
Official Court Reporter

.1
i

■5

16

\i

d

[
[

r

Qg2l

State v. Lyle Mark Coultas, 01010164

It's had a

l

trial and. the things that were coming up.

2

tremendous impact on her that she * s going to need, to

3

go through some fairly extensive counseling.
Each of these children have been subjected

4

2252)

(5>y|ip!

5
6

/

to the type of pornographic materials on the computer
and the things that were shown here in the court that
-g=^>;gfggagags;:ssja3S!;as;asSsai!saafegj^^

f

7

they should never have had to undergo at any time, and

8

that because of the defendant1 s actions and the

9

necessity to do this to prove the actions

10

things that he committed, they were again reguired to

11

go through and see this pornographic material again on
'■5S“-

f'""'
S

12

the witness stand, which was something that was

13

distasteful and unpleasant to go through, but

14
15

something that they nevertheless went through to make
1
sure this individual does not do this again to other

is

people.

17
'!

Each of these children testified -- they

18

described the circumstances in which that they were

19

subjected to the abuse.

20

they were not willing to disclose this,

21

making any disclosure until one child came home from

22

the February party down there and told her mother, and

23

this started everybody going through and starting to

24

disclose it.

25

Each of them described how
They weren't

I have read the letters that were submitted
Stephanie B. Lanier
n-Ffi rri

Hrsirr-t P4=>7Wrt#*r*

e

m®WK OF STATE’S EXHIBITS
STATED GOULTAS
CR 01=0164

9"

STATES EXHIBIT 1

-

Juliette's House Video Tape ofDonngCountas interview

STATE’S EXHIBIT 2

-

Juliette's House Medical Examination of Donna Coultesby Dr. Moose

STATE'S EXHIBIT $

•

Juliette's House interview©! Donna Couites fry Michele Warner

STATES EXHIBIT 4

-

CaiWn Frfckefs Counseling Records

STATES EXHIBITJL °

Pricker's Medical Records From Providence Hospital
Images of interest from Defendant’s Computer Pages fto 71

irr®

...........................

n"‘

'

.................................

..................................... .........................................................................^................................

...................

STATES EXHIBIT 7

Images of Sailor Moon-Characters

STATE'S EXHIBITS

Simpson Lumber Company Firewood Cutting Fermi (Permit % p. 55)
Photo of Defendant with Elk & Rifle (Elk Yahoo @ p. 44)

STATES EXHIBIT 9
STATES EXHIBIT 1® -

i

Photo of Defendant in' Plaid Shirt (©rtely me @ p, 4®)

- STATES EXHIBIT 11-

.- -T

Photo of Defendant In T - Shirt (Picture 1 @ p. 56)

STATES EXHIBIT 12 -

y

Advertisements for Teenage Sex £(01 (3) p. 1); (Of(1)1 p. 1);
(12(1)1 p. 2); (Are_petite1(1) p. 41); (DS?(3)1 p. 44);
(Ovejreen=Sf*fiy p. 50); (Lego 2x2(1) p„ SO); (Russlahteens p. 81);
(Taenswtoys p. 66}; (Jeen@1 p. 66); (Teensexmalles602_61 p. 66);
{Teenbiovsjo&i-i) p 66); (TxooOOT p* 6®)J

’*

*■ • *-

.

A

/
\

STATE'S EXHIBIT 13 -

14 Pictures of. Young a Girl in Provocative Poses by Bed
pSmll{1) p. 3 & p. 5); (4Smft(1) p. 8); (3SmSl(V p. 6); (8Sm!l(1) p. 11);
(5Smll(1) p. 9); (7Sm!I(1) p. 10); (13SmII(1) p. 2); {6Smll(1) p„ 10);
(10Smll(1) p. 2); (8SmfI(1) p. 11); (15Smlf(1) p. 3); (11smll(1) p„ 2);
(14Sml!(1) p* 3); (12Smll(1> p. 2J| .

STATES EXHIBIT 14 -

11 Pictures of Various Young ©Iris in Provocative-Poses- [(Cover p, 43);
(Animate_01(1) p. 41); (Anlmate_@3(i) p. 41); (Jen2(1) p. 48);
(Jen(3)1 p. 48); Jsr4(1) p. 49); (RabbK1(1) p. 68); (Rabbft2(i) p. §8);
(RafrbSf5(1) p. 68); (RabbilS(1} p. 58); (RabbM3(1) p. 58)2

STATES EXHIBIT 1§ =

Two Photos of Britney Spears <

STATES EXHIBIT-i6 STATES EXHIBIT IT °
STATES EXHIBIT 18-

.

*

Donna Couftas' Counseling Records ~ Patti Bailey

hjjbffrft

Pornographic Pictures Shown to ©iris off of Computer

' -*Cr

tm — /~A4C t4g?a.

STATES EXHIiff 19 -

^-^3

' C,
Sesa *2-60*1*

. i

F

i*'

A

Jfon. James % JCargreaves
Senior Circuit Judge
State of Oregon

■

Mr. Frank E. Stoller
Attorney at Law
P.0. Box 459
Dundee, Oregon 97115
Mr. W. Douglas Marshall
Assistant Attorney General
Department of Justice
1162 Court Street N.E.
Salem, Oregon 97301-4096

' v\. .
•■■■

•....

* §*=-1,

«A? ? t 203?
ATTO^:!4 ■

Re: Coultas v. Jean Hill
Malheur 06-04-5061-M
Dear Counsel
Despite the plethora of issues raised in the 125 page Petition, there are only a handful of
core issues that merit addressing. These fell into four general categories:
1. The handling of the issues surrounding the allegations of sexual abuse of
Petitioner’s daughter that were alleged to have taken place in his pickup;
2. The computer report;
3. Comments on the credibility of witnesses by another witness;
4. Appellate counsel’s failure to address the issue of the comments on the
credibility of witnesses by other witnesses as plain error.
1. Allegations of sexual abuse in the pickup
It is my opinion from a review of the record that trial counsel made at least two highly
significant errors regarding this issue. The first was in not moving for a judgment of
acquittal as to these aliegaridhs basij Oiithefeihfre ^fthe SMe to pnove venue. It is
crystal clear from reading the argument of the Prosecutor to the jury that he knew he had
a venue problem. There is no other reason he would have argued to the jury that Venue
had been established because the trips in the pickup began and ended in the county. To
me this clearly establishes he knew he had not proven venue where the acts actually
occurred. There is no reason that trial counsel should not have known this as well.
While I found no evidence in the record that Petitioner’s contention in his deposition that
he only drove with his daughter in another county was ever conveyed to trial counsel, the
simply fact that the abuse was alleged to have occurred in a moving vehicle should have
been sufficient to put trial counsel on notice that there might be a venue issue present. As
indicated above, the Prosecutor figured it out. Iftrial counsel had done an adequate job of
34932 Danstrom Road, Creswell, OR 97426
Telephone/Fax 541-895-3038 Email: jrhdks@hotmail.com

v 3.$*** if*”1?1® g

1

Hi LAW

m
m

mp

‘Hon. James % Hargreaves

F-

4. Appellate counsel’s failure to address the issue of the comments on the credibility
of witnesses by other witnesses as plain error
As state above, if it was prosecutorial misconduct for the Prosecutor to ask; and if it
would have been error for the court to overrule an objection if made by trial counsel; and
if it was error on the part of the trial j udge not to stop that line of inquiry sui sponte, I
don’t see how adequate appellate counsel could have chosen to not raise this issue as
plain error.
‘

Based upon the foregoing, it is the finding of the Court that trial counsel was inadequate
in representing the Petitioner and that this inadequate representation requires that the
conviction be reversed and the case remanded for a new trial.
Vei

dames R. Haq
Senior Judge

Fes

34932 Danstrom Road, Creswell, OR 97426
Teiephone/Fax 541-895-3038 Email: jrhdk5@hotinaii.com

3

a

j
'iv

Eneas® Examination Report
Review of Lyle CouStas evidence based on PI Peter Constantine’s Affidavit
OSP 01 «14393©

/

i

it /

f\<d)Q£iA(M-e.'y{ H

I have conducted an additional examination based on this information and based on information found within the affidavit
from Peter J. Constantine, an independent computer forensic examiner hired by Mr. Couitas's council.

■

My first steps in this exam were to collect all digital evidence and open them within a controlled environment using
Encase, a well known and established computer forensic tool. I read through Mr. Constantine's affidavit and created a
keyword list of the names of the Images there were either marked by or shown to the witnesses involved in this case.
Mentioned on page 5 of 6 of my original report dated 7/9/2001, the initial Installation date of the computer operating
system from evidence item El drive 1 of 2 hereafter referred to as HD1, was 1/30/2001. At the time of my initial exam '
this date was not that significant and any reader may not have realized its importance.
On 1/30/2001 the computer seized from Mr. Couitas's house had a new installation of Microsoft Windows 98. The
significant dates In question are February 2nd, 3rd or 4th 2001, just three days since the installation occurred. I again
reviewed all evidence using Encase 4.22a, conducting multiple sorts by Last Access Date, Creation Date and Last Written
Date. My findings cqi^oiat^.hajLl^ C^ten^ alsojto that the files of significant value In this____________
case could not be
found on htrortn'ecfrlve 1 or i, nereafter rererreafoas i-iflz, baseb on the current state of Mr. Couitas's computer hard
drive.

Of significant value however are the floppy diskettes seized (See scenario #2) and examined during my initial
examination and metadata found in the SY5TEM.DAT file of the registry (See scenario #1.)
I reviewed Mr. Constantine's affidavit and again reviewed my original computer examination report. I created a keyword
list of file names that the witnesses viewed and either identified or not identified but was used in this investigation.
^'.V

I searched all the floppy diskette images and both hard drives seized during this case. The result of this searched
revealed data contained in "slack" space of FDD 42,48,68 and 164. These are new findings from FDD 42 and 164.

>

What these findings show Is that the images the witnesses saw were in the possession of Mr. Coultas; however existed
prior to the current installation found on HD1 (see pages 12 -15, items 1 through 4.)

i

I used a tool from Access Data, Inc. called Registry Viewer which I am licensed to use. Using Encase 4.22a I copied out

-\
$

5^.

'k

't

(

’’age 2 of 16 - Findings reported by Detective Stephen -Payne of thf

egon State Police

(

i

A
3
4

IN THE CIRCUIT COURT OF THE STATE OF OREGON

5

FOR THE COUNTY OF YAMHILL

6

THE STATE OF OREGON,

)
)
)
)
)
)
)
)
)

Plaintiff,

7
v.
S
1D

LYLE MARK COULTAS,
Defendant

No. CR01-0164
STATE’S REPLY TO DEFENDANTS
SUPPLEMENTAL MEMORANDUM

11
12

The State, by and through Carrol! J. Tlchenor, Deputy District Attorney, counsel assigned to

13

file case of State v. Co&eltas,, CR01-0164, responds to the Defendants Supplemental

■ i

Memorandum.

15
16
17
18
19
20
21
22
23
24
25

— 26

As stated in the State’s Supplemental Reply To Defendants Motion For A New Trial, the
defendant has failed to present any information upon which he is entitled to a new trial. The last
access dates furnished by Detective Payne of the Oregon State Police during the hearing on tHe
defendants motion for a new trial, serve only to confirm what Detective Payne represented to me
during the pre-trial preparation for this case. That was that the last access dates onjyj>ertain to_
the information available on the computer at the time it was examined. The available last access
9

dates do not reveal anv information about files on floppy disks or on CDs..
The defendants argument that evidence that was admitted during the trial was irrelevant
is not a basis for a new trial. Any failure to object during trial cannot now be made the basis for a
new trial. If objections were made and overruled, this is similarly not a basis for a new trial.
The State continues to assert that the pictures of the Sailor Moon cartoon characters that
were identified by the witnesses were relevant to establish the type of materials that thsyjft/ere^
STATE’S REPLY TO DEFENDANTS SUPPLEMENTAL MEMORANDUM
Pege 1
DISTRICT ATTORNEY
Yamhfl! County Courthouse
McMinnvilte- Oreoon 97128 (503) 472-9371

*2.7

f)pp<yjl'€y

i

fte- f
1

nfs coi

shown and that Items similar to what they were shown was found on the def

The State did not make any representation that the exact pictures presented in court were the
3
4
5
6
7
8
9
10

3'

same ones that were shown. It was clearly represented that those items used in court were
printed documents from some of the files contained on the defendant’s computer. The testimony
in court revealed that the defendant had a great deal of additional sexual related materials that
were not in the defendant’s house when it was searched.
It is the State’s position that there is no new information bearing on the defendant’s
motion for a new trial in the Defendant’s Supplemental Memorandum. The State persists in its
requests that the court deny the defendant s motion for a new trial.
DATEDiNovember 3Qt 2002

11
Carroll 4lTicnenor, 64-109
Deputy district Attorney

12
13
si 4

A copy of this document has been mailed to defendant’s attorney of record.

'15
!

16
17
. 16
19
20

p

21
«»«*

22
23
24
25
26
STATE’S REPLY TO DEFENDANTS SUPPLEMENTAL MEMORANDUM
Page 2
DISTRICT ATTORNEY
Yamhill County Courthouse
McWBnnvBle, Oregon 37128 (503)472-3371

<

*7

1

•>?

